<html>
<title> - DEVELOPING TRUE HIGH SPEED RAIL IN THE NORTHEAST CORRIDOR</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                    DEVELOPING TRUE HIGH SPEED RAIL
                      IN THE NORTHEAST CORRIDOR--
                   STOP SITTING ON OUR FEDERAL ASSETS

=======================================================================

                                (112-1)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 27, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


               Available online at: http://www.fdsys.gov/



                  U.S. GOVERNMENT PRINTING OFFICE
65-480                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed8a9d82ad8e989e998588819dc38e8280c3">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Bloomberg, Hon. Michael, Mayor, city of New York.................     8
Hart, Thomas, Vice President, Governmental Affairs, U.S. High 
  Speed Rail Association.........................................     8
Rendell, Hon. Ed, Co-Chair, Building America's Future............     8
Scardelletti, Robert, International President, Transportation 
  Communications International Union.............................     8
Todorovich, Petra, Director, America 2050, representing the 
  Business Alliance for Northeast Mobility.......................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Maloney, Hon. Carolyn B., of New York............................    56
Mica, Hon. John L., of Florida...................................    58
Nadler, Hon. Jerrold, of New York................................    65
Shuster, Hon. Bill, of Pennsylvania..............................    69
Slaughter, Hon. Louise M., of New York...........................    70

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bloomberg, Hon. Michael..........................................    73
Hart, Thomas.....................................................    76
Rendell, Hon. Ed.................................................    81
Scardelletti, Robert.............................................    90
Todorovich, Petra................................................    95

                       SUBMISSIONS FOR THE RECORD

University of Pennsylvania School of Design, Department of City 
  and Regional Planning, executive summary of report entitled, 
  ``Making High-Speed Rail Work in the Northeast Megaregion''....    10

                        ADDITIONS TO THE RECORD

Fitch Ratings, report entitled, ``High Speed Rail Projects: 
  Large, Varied and Complex''....................................   100
Northeast Corridor Infrastructure and Operations Advisory 
  Commission, report.............................................   119
Virgin Rail Group, Tony Collins, CEO, written testimony..........   128

[GRAPHIC] [TIFF OMITTED] T5480.001

[GRAPHIC] [TIFF OMITTED] T5480.002

[GRAPHIC] [TIFF OMITTED] T5480.003

[GRAPHIC] [TIFF OMITTED] T5480.004

[GRAPHIC] [TIFF OMITTED] T5480.005

[GRAPHIC] [TIFF OMITTED] T5480.006

[GRAPHIC] [TIFF OMITTED] T5480.007

[GRAPHIC] [TIFF OMITTED] T5480.008

[GRAPHIC] [TIFF OMITTED] T5480.009

[GRAPHIC] [TIFF OMITTED] T5480.010

[GRAPHIC] [TIFF OMITTED] T5480.011



DEVELOPING TRUE HIGH SPEED RAIL IN THE NORTHEAST CORRIDOR--STOP SITTING 
                         ON OUR FEDERAL ASSETS

                              ----------                              


                       Thursday, January 27, 2011

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:10 a.m., at 
Grand Central Station, Northeast Balcony, New York, New York, 
Hon. John L. Mica [chairman of the committee] presiding.
    Mr. Mica. I call to order the Committee on Transportation 
and Infrastructure of the United States House of 
Representatives. Welcome, everyone, to this field hearing. This 
is the first field hearing for our committee; and we are 
pleased to be in Grand Central Station in New York City.
    The order of business today will be: First, we will have 
opening statements by the principal leaders of the committee: 
Myself, chairman of the full committee; Mr. Shuster is chairman 
of the Rail Subcommittee. Then we will hear from the Democrat 
leader and the ranking member of the full committee, Mr. 
Rahall, the gentleman from West Virginia.
    We will hear from Ms. Brown, who is the Democrat leader and 
ranking member of the Rail Subcommittee.
    We are going to start with a little different order. We 
will allow each of those individual members to give opening 
statements. After those opening statements, we're going to 
begin hearing from our witnesses. Mayor Bloomberg is a bit 
delayed. We will hopefully keep the program on schedule and we 
will hear from him as he arrives.
    When we have heard from the Mayor and Governor Rendell, we 
will allow other members who are with us today for opening 
statements or questions, however they would like to utilize 
their time.
    We have been joined by several other members of the New 
York delegation. This is one of the largest gatherings, I 
think, historically, of the House Transportation Infrastructure 
in New York City. And we are pleased to be here and discuss a 
very important topic.
    The title of today's hearing is ``Developing True High 
Speed Rail in the Northeast Corridor.'' And that's also part of 
a report that we released entitled ``Stop Sitting on our 
Federal Assets.'' Last fall we produced that report.
    And certainly, the Northeast Corridor is one of the most 
valuable Federal assets that the American people have an 
interest in; and that's our interest in being here. And as I 
said, we'll start with my opening comments here.
    This hearing, in fact, is being held as a follow-up to the 
Transportation and Congressional report. You see the title 
here, ``Sitting on our Assets.'' The Federal Government has 
misused the taxpayers' own assets. One of the most valuable and 
potentially productive Federal assets in the United States is, 
in fact, the Northeast Corridor. This 437 mile stretch of 
incredibly valuable real estate covers the distance between 
Washington, our Nation's capital, and Boston, Massachusetts.
    Halfway up the corridor, here in New York City, we are 
right now in America's business and financial and the world 
center of those activities. This is also our Nation's most 
congested and densely populated area; yet New York City is not 
served by true high speed rail, and true high speed rail may 
not be realized here for more than three decades to come.
    Unfortunately, this is a valuable national transportation 
asset and the development of true high speed passenger rail on 
the Northeast Corridor has been largely ignored. President 
Obama last year said there is no reason why Europe and China 
should have the fastest trains when we can build them right 
here in America.
    High speed trains move in Europe at an average speed of 186 
miles per hour. Amtrak's Acela chugs along an average between 
D.C. and New York at 83 miles an hour. On Amtrak yesterday, on 
my ride up here, they travelled at the lightning speed, an 
average speed of 65 miles an hour between New York and Boston. 
By comparison to Europe and Asia, the Acela is moving at a 
snail's pace.
    America's current plan is to bring true high speed rail to 
the Northeast Corridor--and actually, I misstated that--to 
bring what they call high speed rail to the Northeast Corridor. 
Amtrak's plan would require $117 billion and would not be 
completed until 2040. This is their plan.
    This low speed schedule of bringing true high speed rail 
service to the Northeast Corridor or any level of high speed 
rail to the Northeast Corridor, would never allow President 
Obama to meet the goal he has stated before the Nation just two 
nights ago in the State of the Union address; that within 25 
years, our goal is to have 80 percent of Americans access to 
high speed rail.
    Now, Mr. Shuster told me that the Northeast Corridor 
accounts for 20 percent of the population of the United States. 
So maybe that plan does not include the Northeast Corridor, 
that's the 20 percent that's been left out; just do the math.
    My hope that this timetable can be dramatically improved. 
Let me say, we're going to do everything possible to work with 
the administration, everyone on both sides of the aisle, to 
improve that schedule.
    Entering into public-private partnerships to assist in the 
financing of high speed rail development on the Corridor, I 
believe can get the project done much faster and dramatically 
bring down costs. We can also bring down the amount of money 
that the taxpayer would have to put into the project; that is, 
with some private sector investment funding.
    Unfortunately, one of our Nation's most valuable assets, 
including some of the most prime real estate in the world, has 
been left behind. Instead of providing visionary transportation 
to link America's crowded corridor, we continue to support an 
antiquated and unproductive corridor that struggles to meet the 
needs of its many users.
    Finally, why should Members of Congress, from more than a 
dozen states here today, care about the Northeast Corridor?
    Let me state some of the reasons.
    First, the Northeast Corridor is a tremendously, incredibly 
valuable Federal asset.
    Second, we're the stewards and the trustees of these 
assets. I believe we have an obligation to all Federal 
taxpayers and the citizens of these great cities.
    Third, this is our Nation's most congested corridor, on the 
land and also in the air.
    Fourth, 70 percent of our chronically delayed air flights 
in the country, chronically delayed in the country, 70 
percent--get this--start right here in the New York air space.
    So there are benefits to the entire country by us being 
here today and actions to move this project forward.
    Fifth, Amtrak, I can tell you--this is my 19th year of 
following Amtrak--will never be capable of developing the 
Corridor to its true high speed potential. The task is too 
complex and too large scale, and can only be addressed with the 
help of private sector expertise, those who have done this 
before, those who can do it in the future. And also, they will 
never get the funding for it with the plan they have currently 
proposed.
    Sixth, bringing true high speed rail to the Northeast 
Corridor will benefit the entire Nation.
    So those are some of the reasons that I think we have got 
to move ahead.
    The large turnout today by members of the Transportation 
and Infrastructure Committee, and New York area members, is a 
testament of the high level of interest and commitment to new 
and innovative transportation solutions.
    I want to thank everyone for attending today, and 
particularly thank our witnesses in advance. I look forward to 
your testimony. I particularly want to thank Governor Rendell. 
He is here and he is going to speak in a few minutes. He took 
Amtrak and took public transit, I think two subway lines to get 
here today. That's remarkable, and we appreciate not only 
getting here today, but his continual leadership on this issue.
    We will have Mayor Bloomberg in just a few minutes, and we 
appreciate both of their long term support.
    Mr. Mica. Due to the schedule, the demands, I again will 
proceed with hearing first from our ranking members. And I will 
turn to my good colleague, new partner in this endeavor, the 
gentleman from West Virginia, and welcome again his input for 
this important topic, Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. I appreciate it. I 
appreciate the opportunity to be here in New York City as the 
committee begins its hearings on Amtrak and high speed rail in 
the Northeast Corridor.
    In the 2008 Congress, we charted a new course for passenger 
rail in the U.S., an enactment of bipartisan legislation, the 
Passenger Rail Improvement Act. That law created two new 
national programs for the development of high speed intercity 
passenger rail.
    It also reauthorized Amtrak, which currently holds 69 
percent of the air rail market shared between Washington, D.C. 
and New York.
    After years of battling starvation budgets for Amtrak, 
Congressional efforts to eliminate certain routes, the Bush 
administration's budget proposal to destroy Amtrak in 
bankruptcy; we're all proud to report that for the first time 
in decades, the 2008 act set forth a new path for investing in 
one of America's greatest assets, Amtrak.
    In addition, that law created a process for the U.S. DOT to 
issue a request for proposals through the private sector, to 
finance, construct and operate high speed rail service in the 
ten dedicated corridors in the Northeast Corridor.
    Accordingly, DOT, eight private sector proposals were 
submitted and then forwarded to the Volpe National 
Transportation System, DOT Research Center, for review. The 
Volpe Center then recommended five proposals for DOT 
consideration.
    The French National Railway submitted four proposals for 
development of high speed rail in Florida, the Midwest, 
California and Texas. And the California High Speed Rail 
Authority submitted the fifth proposal.
    I would note that no private sector proposals were 
submitted for the Northeast Corridor. In the year after the 
2008 act, Congress provided the most significant investment in 
passenger rail since the creation of Amtrak in the 70s.
    The American Recovery and Reinvestment Act of 2009 provided 
$8 billion for the development of high speed inner city 
passenger rail; and $1.3 billion for Amtrak capital 
improvements. In addition, 2 and a half billion dollars for 
passenger rail for fiscal year 2010.
    These grants for the first time in the history of Amtrak 
have enabled the national passenger railroad to release the 
brakes, to pull the throttle out of survival mode and turn its 
full attention to future service and equipment improvements to 
meet growing demands, including the development of high speed 
rail in the Northeast Corridor, a plan that Amtrak unveiled 
last September.
    While I'm pleased with continuing efforts to invest in and 
improve the Northeast Corridor, one thing I believe that this 
Congress needs to remain focused on is developing a national 
program. After all, it was a national vision that led to 
creation of the world's most advanced highway and aviation 
networks, helping to spur unprecedented economic growth to 
foster new communities, connect cities, towns and regions, and 
create millions of jobs.
    The Federal Government, the states and local communities 
and the private sector have all worked together to recognize 
that national vision. But it did not happen overnight. It took 
60 years and $1.8 trillion to get where we are today.
    That same national vision was established by Congress in 
2008 and reiterated by President Obama in his vision for high 
speed rail, combined with those same partnerships, is what is 
needed today to develop a truly national rail system in the 
United States.
    Thank you, Mr. Chairman, for the time. I look forward to 
hearing from today's witnesses.
    Mr. Mica. Thank you.
    I yield to the chair of the Rail Subcommittee, the 
gentleman from Pennsylvania, Mr. Shuster.
    Mr. Shuster. Mr. Chairman, thank you for holding this 
hearing today in this historic building. My colleague leaned 
over and said he doesn't think a building like this could be 
built again. It's a beautiful structure, and it's great to be 
here. It's great to have this hearing on true high speed rail 
in the Northeast Corridor.
    I would also like to welcome Governor Rendell and Mayor 
Bloomberg for their efforts on building infrastructure; and of 
course, the Governor for the success he's had in Pennsylvania 
with some of your projects over the years.
    It is an exciting time to be a member of the Transportation 
Committee. There's a lot of progress to be made in this 
country. I believe we in the Committee are going to be able to 
tackle and address many of those, especially the need for high 
speed rail in this corridor.
    I believe it's important to the future to have high speed 
rail as a better way to move large numbers of people on 
passenger rail. My home state of Pennsylvania, and I think the 
governor will touch upon the Keystone Corridor. I'm not going 
to go into the details; he will hopefully touch upon that.
    He made the investment in Amtrak and improved the Keystone 
Corridor from Harrisburg to Philadelphia. I'm a poster child, 
somebody that 20 years ago said, ``I'll never get out of my car 
again to go on the rails, I want to use my car with 
flexibility.'' Today, I don't travel to Philadelphia from 
Washington. I take the train from Harrisburg because of the 
convenience of it, the reliability of it. It's a great success 
story, when it comes to passenger rail in United States.
    Unfortunately, the United States is far behind the curve. 
Our friends in Europe and Japan have decades on us working on 
high speed rail. The Japanese have a train that travels over 
300 miles an hour. And the Chinese are spending $300 billion 
dollars to build 8,000 miles of high speed rail. They say 
they're going to complete that in the year 2020.
    Our competition in the world is doing it. We need to keep 
up with the competition. For a hundred years, the United States 
was the unquestionable leader when it came to passenger rail 
trains. Unfortunately, the rail delivery industry, the 
passenger rail industry, highways and aviation caused its 
demise.
    But the times are changing. We want to get back on the 
rails. Look at the population of the United States. Just in 
2006, we crossed the 300 million person threshold in America. 
By 2039 there'll be 400 million American citizens.
    We need to figure out ways to move that population, 
especially in urban areas. Look at the map. Not everybody lives 
in the Northeast Corridor, Florida and Arizona. But the 
Northeast Corridor continues to be the most densely populated 
area of the United States. And again, we need to figure out a 
way to move people effectively and efficiently, and I believe 
high speed rail is the way to do that.
    Unfortunately, the President had stimulus money and a 
vision, but he took that stimulus money and he spread it too 
thinly across the Nation, instead of focusing on the Northeast 
Corridor. In his State of the Union address on Wednesday night, 
he talked about building high speed rail in America, having 
access for 80 percent of the population.
    I don't believe that's realistic. I believe if he were 
truly committed to high speed rail he would start here in the 
Northeast Corridor, for many of the reasons the Chairman said. 
Twenty percent of the population lives here. The existing line 
is here, and we need to upgrade it. I believe we will be able 
to have high speed rail, which will spread throughout this 
country over time.
    This corridor is critical, the investment is critical, and 
we need to attract the private sector to this effort. I 
believe, Mr. Chairman, we need to have the private sector 
involved to produce a high speed rail corridor that can be 
built in a relatively short period of time.
    Again, I want to thank the Chairman and thank our witnesses 
for being here today. I look forward to hearing your testimony.
    Mr. Mica. Thank you.
    I am pleased to yield to the former chair of the Rail 
Committee, and current ranking member, my colleague from the 
state of Florida, a great advocate of transportation, Ms. 
Brown.
    Ms. Brown. I want to thank Mr. Mica and Mr. Rahall for 
holding this first hearing of the 112th Congress, on the issue 
I think is so important for this country. I also want to thank 
my colleagues. We have 14 members here from all over the 
country. We have people from the New York delegation joining us 
and people from the New Jersey delegation joining us. It is a 
lot of excitement about the rails.
    And I also, looking at the audience, want to thank some of 
our stakeholders. Labor is here. They are very interested in 
what's happening. Business people from all over the country are 
here. So there is a lot of interest in what is going on with 
rail.
    Also, Amtrak is in the room. And I personally asked they be 
at the table, because I thought it very important that they who 
run the Northeast Corridor be involved in giving us information 
as to what works, what does not, and what kind of investment 
needs to be made in the system.
    We invested a lot of money in the highway system, $1.3 
trillion in our Nation's highway system; and $484 billion 
dollars in aviation. And since 1970, when Congress created 
Amtrak, we have invested just $67 billion in passenger rail.
    I got to tell you, I love this new bipartisan working 
together. But keep in mind, for eight years under the Bush 
administration, every budget that arrived to Congress was 
zeroed out for Amtrak. I want to thank President Barack Obama 
for the first time making a major investment in high speed 
rail, for the first $8 billion.
    I know that's a beginning. Keep in mind, China is putting 
$300 billion, and that's our competition. We need to work 
together to augment the system. But we also need to work with 
our partners and stakeholders as we develop a system. It is not 
the Federal Government telling the state and local governments 
what to do.
    I think there are a lot of stakeholders involved, and as we 
develop how we're going to develop the Northeast Corridor in 
the United States, it is going to be as, like military people 
say, one team, one fight, working together.
    Thank you very much, Mr. Chairman, for holding this 
hearing. I'm looking forward to hearing from the presenters.
    Mr. Mica. Thank you, Ms. Brown.
    We are pleased to go ahead and begin the hearing with our 
witnesses. We have four of the five witnesses who will be 
before us here. We'll go ahead and proceed in that order.
    I'll just say that we in fact gave Amtrak--it took us three 
hours to get here last night, and they had more time than 
anyone will have with all of the Members of Congress to brief 
us on the train. We were captive to their system. And I thought 
we had a great discussion, which went on for some time.
    Let me tell you, first order of the day, this is going to 
be a fairly brief hearing. I like brief hearings; it is 
scripted, as you know. But we do have an opportunity for some 
discussion here.
    When we conclude this hearing, we will have an open forum 
upstairs--the MTA's board room, as many people as want to 
participate, will follow this with a discussion. And there will 
be an open discussion. Some people sitting here have good 
questions and good ideas. I welcome you to participate. It will 
be open, it will have to be orderly and limit some of your 
time. But I will be operating the committee in a different 
fashion, so that hopefully we can get productive input and 
exchange.
    Amtrak will also be available at that session too, and 
others who we couldn't get in this panel.
    Then, our final business of the day, since we have many new 
members, 19 of the Members of the Committee on Transportation 
and Infrastructure who did not serve in Congress before; and 
we're going to take them down to show them the mega-New York 
project. And we'll also be briefed by Mayor Bloomberg and some 
transportation staff on the projects that New York City has 
going.
    These projects are important, not only to New York City and 
this region, but the Nation. And we need to have the 
information about these.
    And finally, we're going to move forward in the Northeast 
Corridor. The sleet and the snow, the slush, whatever, if we 
can get here today, we are going to make this work and give a 
new meaning to ``The Great White Way.''
    With that, I yield----
    Voice. I have a statement from Carolyn Maloney to be 
included in the record.
    Mr. Mica. Carolyn Maloney, without objection, so ordered.
    She asked me to express her strong support for development 
of the Northeast Corridor. She is a champion of it. She has 
another commitment and could not break away, otherwise she 
would be here. I view her as a true valuable partner, along 
with the others that are here today.
    With that, let me introduce our first witness. This 
gentleman has left the most important position in Pennsylvania 
government. He has been a tireless advocate of improving the 
Nation's infrastructure. He is on the other side of the aisle, 
but that doesn't mean squat to me. I view him as, again, one of 
the strongest voices in America for moving our infrastructure 
forward, getting people working again, getting us on the right 
track to moving the economy and people around this country and 
our Nation.
    I am pleased to welcome for the Transportation Committee; I 
recognize at this time Governor Ed Rendell.
    Welcome, sir.

  TESTIMONY OF HON. ED RENDELL, CO-CHAIR, BUILDING AMERICA'S 
FUTURE; THOMAS HART, VICE PRESIDENT, GOVERNMENTAL AFFAIRS, U.S. 
   HIGH SPEED RAIL ASSOCIATION; PETRA TODOROVICH, DIRECTOR, 
AMERICA 2050, REPRESENTING THE BUSINESS ALLIANCE FOR NORTHEAST 
    MOBILITY; ROBERT SCARDELLETTI, INTERNATIONAL PRESIDENT, 
  TRANSPORTATION COMMUNICATIONS INTERNATIONAL UNION; AND HON. 
           MICHAEL BLOOMBERG, MAYOR, CITY OF NEW YORK

    Mr. Rendell. Good morning, Mr. Chairman. Thank you, 
Chairman Mica, Ranking Member Rahall, and Members of the 
Committee. Thank you very much for coming here and having these 
hearings.
    I'm going to start off by saying I agree with everything 
Mayor Bloomberg said, because I read his statement. He is not 
here, but remember I agree with everything he said.
    I also want to recognize, of course, Chairman Shuster from 
Pennsylvania, and Congressman Meehan, a friend of mine from the 
Philadelphia area.
    Congressman Meehan, it's nice to see you here.
    The Committee, and your statements have recognized it, the 
four members who spoke, that passenger rail has been seriously 
underfunded for decades and decades in the United States. We 
recognize what is going on in other parts of the world.
    Not only in the way high speed rail operates, as 
Congresswoman Brown said, but the difference in funding in 
China, our biggest economic competitor, is making, compared to 
what we are making. So I'm not going to go over those.
    Let me say, President Obama, as Congressman Rahall said, 
deserves credit as the first American president to put 
significant dollars into passenger rail; over 10 and a half 
billion dollars distributed in the last 18 months.
    It was a great start, and the President and Secretary 
LaHood deserve praise for going down that road. But I think we 
need to get real. The way we are doing high speed rail right 
now in America will amount to nothing. It will amount to 
nothing for two reasons.
    One, it's too diffuse. You cannot do high speed rail 
politically. In the first allocation, the Federal Government 
gave $7.9 billion to 36 states. In the second, $2.5 billion to 
23 states, but for 54 separate projects.
    It won't work. It's not enough money to make a dent in any 
project. And first of all, he has to convince the American 
people that high speed rail is viable, it makes sense, and it 
can be cost effective.
    The answer to the question Chairman Mica posed, why start 
in the Northeast? Because we've got to make sure there's one at 
least in California, in Florida, or in the Northeast Corridor. 
We know these systems work, they're viable, it's sustainable, 
many people will ride them.
    If we don't do that, we won't get the American people to 
give support for high speed rail funding at all. So first, it's 
too diffuse. Let's concentrate on one or two or three projects. 
The Northeast Corridor is number one. America 2050 just 
released a report in which it ranked the top ten potential 
corridors for high speed rail: New York to Washington, number 
one; New York to Boston, number two.
    If we were a business, we would look no further. That's 
where we would put our money. When it comes to high speed rail, 
we have got to become more like a business.
    So, second reason: It's too slow. We're spending money to 
go from 80 to 110 miles an hour. The Chairman said it was slow 
speed rail, snail speed rail. I have described it as mid speed 
rail.
    By the way, I'm here in my capacity as the co-chair of 
Building America's Future. I'm also here in the capacity as a 
former governor who invested a lot of state resources in 
passenger rail.
    It's too slow. We're going to compete with all of those 
countries. Do you know they're testing high speed rail systems 
in Shanghai that go 360 miles an hour? In France, 357 miles an 
hour? And we're talking about spending billions of dollars to 
get to 110 miles an hour. It makes no sense. We've got to get 
real.
    And I think there are two road maps for getting real. Road 
map number one is the Amtrak plan; $117 billion over 30 years 
to cut the cost of the speed from Washington to New York from 
162 minutes to 96. You get Washington and New York down to 96 
minutes, you will end the air shuttles, and you will improve 
dramatically the air traffic delays in the corridor with the 
Nation's busiest airports.
    New York City to Boston from 215 minutes to 84 minutes; an 
hour and 24 minutes. The speed on Amtrak realized is 220 miles 
per hour.
    It's not just Amtrak. The University of Pennsylvania School 
of Design, one of the very best in country, did a student 
project. These students, four of them are here today. They 
developed a plan that I'd like to submit to the committee on 
making high speed rail work in the New York mega-region. It's a 
plan that would cost $98 billion and take 30 years.
    Why so long?
    The only way that high speed rail really works is with 
dedicated tracks. It can't share tracks with freight rail, it 
can't share tracks with commuter rail, because it would never 
achieve the speeds necessary. You have to build dedicated 
tracks, and that means right of way. If China can spend $300 
billion in ten years, I believe we can spend $100 billion in a 
lot less than 30 years.
    That's a task that I think the Congress should address 
itself to.
    Mr. Mica. Mr. Shuster moves that that report be made part 
of the record. With unanimous consent, without objection, 
Governor, we'll get that in right now.
    [The executive summary of the report follows; the full 
report can be found online at http://studio.design.upenn.edu/
hsr/node/81.]

[GRAPHIC] [TIFF OMITTED] T5480.012

[GRAPHIC] [TIFF OMITTED] T5480.013

[GRAPHIC] [TIFF OMITTED] T5480.014

[GRAPHIC] [TIFF OMITTED] T5480.015

[GRAPHIC] [TIFF OMITTED] T5480.016

[GRAPHIC] [TIFF OMITTED] T5480.017

[GRAPHIC] [TIFF OMITTED] T5480.018

[GRAPHIC] [TIFF OMITTED] T5480.019

[GRAPHIC] [TIFF OMITTED] T5480.020

[GRAPHIC] [TIFF OMITTED] T5480.021

[GRAPHIC] [TIFF OMITTED] T5480.022

[GRAPHIC] [TIFF OMITTED] T5480.023

[GRAPHIC] [TIFF OMITTED] T5480.024

[GRAPHIC] [TIFF OMITTED] T5480.025

[GRAPHIC] [TIFF OMITTED] T5480.026

[GRAPHIC] [TIFF OMITTED] T5480.027

    Mr. Rendell. I arranged to brief the Vice President on this 
report, as well.
    So, cost. Amtrak needs $17 billion in track costs, right? 
In human terms; Congresswoman Brown made the point that China 
is spending $300 billion to lay 16,000 miles of high speed rail 
connecting all of their major cities.
    We should not fly airplanes on any flight less than 500 
miles. It should be high speed rail. That's the way it's done 
in Europe, that's the way it's done in Japan, that's the way 
it's done in China. It is almost embarrassing what we are doing 
in the United States.
    Now, what are the benefits of spending a lot of money, 
investing a lot of money? The Penn study, Mr. Chairman, the 
Penn study shows that the overall benefits for spending $98 
billion dollars will outstrip the cost by $70 billion. If you 
take the Department of Transportation's study, it shows that 
for every billion dollars in infrastructure we produce 25,000 
jobs. This effort would create two and a half million jobs by 
itself.
    These are well paying jobs that can't be outsourced. And 
where would the materials come from to build out this high 
speed rail? From American factories, from American steel plants 
and concrete plants, asphalt plants and lumber plants, a number 
of plants.
    We would be buttressing American manufacturing, we would 
make the construction industry take off, we would create jobs. 
Would it help the environment? You bet it would. Congressman 
Mica, over and over again, given the statistics, we would be 
stronger by having a high speed rail system that absolutely 
works.
    Air traffic, it would change the face of air traffic in 
America. The build-out of high speed rail, of course, would 
demonstrate to the country that it can work. The estimates are 
that a high speed rail system traveling 220 miles an hour from 
Boston to Washington would make almost a billion dollars a year 
in profit. So we can do it with government dollars, we can do 
it with private dollars, we can do it with a combination of 
dollars.
    We should build this dedicated train line and we should 
have competition on the line. Competition. Amtrak will run it? 
Fine. It should open to private competition, as well. We know 
what happens when there is competition. It's best for the 
riding public.
    Lastly, the field of dreams: If you build it, they will 
come. Absolutely, no doubt, Congressman Shuster--the Keystone 
Corridor line. In Pennsylvania, Amtrak and the state both 
invested 72 and a half million dollars, $145 million for the 
rail line.
    The trip used to take two hours from Philadelphia to 
Harrisburg. When it took two hours we had 890,000 riders a 
year. Within two years, once we speeded up and got to 110 miles 
an hour, now we have--from a ridership of 890,000 to 1.1 
million, a 22 percent increase by just shaving a half hour off 
of the time.
    I think it was Congressman Shuster or Rahall who said that 
Amtrak now has 69 percent of the air and rail traffic from New 
York to Washington; 69 percent now. Ten years ago it had 37 
percent. The Acela changed airport travel from 37 percent of 
the air rail traffic to 69 percent. Boston to New York used to 
be 20 percent by rail, now it is almost half, 49 percent by 
rail.
    If you build it, they will come. We need to get serious. We 
cannot do this by politics. The original grants given out to 
Pennsylvania, we had a number of applications, and we were 
awarded $27 million. And no governor is ever ungrateful about 
receiving--no governor ungrateful, proved me wrong.
    Generally, no one is ungrateful for the award of money. But 
that $27 million didn't make a dent in Pennsylvania. Most of 
the money handed out didn't go to major projects. It was money 
wasted. It was done to say we gave Pennsylvania some money, 
Senator Spector, it can't be all that bad, et cetera.
    We can't do this politically. It is too important. 
Infrastructure in this country generally can't be done 
politically. High speed rail cannot be done politically. Find 
the routes that make the most sense, the routes that will 
produce big ridership, routes that are sustainable economically 
and that can demonstrate to the American people that it can 
work; and the American people will not only ride it, they will 
support it.
    Mr. Mica. Thank you, Governor.
    I will go ahead and recognize the next witness out of 
order, Mayor Bloomberg. And then we'll have everybody available 
for the members to either make opening comments or ask 
questions.
    So I'd like to welcome Mr. Thomas Hart, the Vice President 
for Government Affairs for the U.S. High Speed Rail 
Association.
    Mr. Hart, you're recognized.
    Mr. Hart. Thank you, Mr. Chairman. I appreciate you holding 
this hearing.
    On behalf of the United States High Speed Rail Association, 
its president, Andy Kunz, who's here today, and 250 members, I 
extend greetings to the prestigious bipartisan Transportation 
and Infrastructure Committee. I also want to recognize ranking 
member Rahall, Subcommittee Chair Shuster, and ranking member 
Brown.
    I am here representing the U.S. High Speed Rail Association 
as its Vice President for Government Affairs General Counsel. 
The U.S. High Speed Rail Association is a not-for-profit group 
with a vision for advancing a state of the art, nationwide, 
true high speed rail dedicated track, to be completed in phases 
around the country.
    The U.S. High Speed Rail Association is pleased to share 
its thoughts on high speed rail development in the Northeast 
Corridor. In fact, this past November, we hosted an 
international conference featuring Secretary Ray LaHood, Karen 
Ray and othersl. Over 400 attendees in New York that focused on 
the Northeast Corridor. This was a priority of the association 
and a priority of mine, personally.
    Today, we are delighted to express our common interest and 
vision with the Chairman. We believe the rapid creation of a 
true high speed system in the region, funded in part by the 
private sector through innovative public-private partnerships, 
is in the Nation's interest.
    We are encouraged by Amtrak's recent hiring of Al Engel, a 
seasoned veteran of the high speed rail industry. And we're 
also encouraged by the recent focus of the high speed rail 
industry and this corridor by the Federal Rail Administration. 
They both have to step up their efforts, Mr. Chairman.
    We agree with you that we do not have 30 years to develop 
high speed rail in the Northeast Corridor. With the price of 
oil rising again towards $100 a barrel, it is of the utmost 
importance that we develop the new rail systems to offer new 
transportation systems not dependent on oil.
    Ironically, increased oil prices translate into increased 
rail ridership, which in turn improves the business case for 
high speed rail. We already saw this happen in the summer of 
2008, when oil hit $147 a barrel, and ridership on America's 
rail system rose to record levels.
    So we have a sense of urgency today. We've all heard of the 
advantages of the Northeast Corridor. It is a demographic 
region for high speed rail development, and it will spark 
investment by the private sector.
    However, it's not without challenges that the Northeast 
Corridor has an opportunity for high speed rail. The states 
along the proposed routes, as Governor Rendell knows all too 
well, have a combined deficit of over $45 billion. They are 
currently dealing with widespread deteriorating infrastructure.
    Also, any major regional investment will require political 
bipartisanship, and that's what I like about this committee and 
the leadership on both sides; they do work together. We must 
encourage the governors to do the same thing among the seven 
states in the Northeast Corridor.
    One of the most troubling aspects of the Northeast Corridor 
is that, unfortunately, it is not shovel ready. That's because 
of the absence of a comprehensive environmental impact study, 
lagging regional planning, and finally, token investments in 
the high speed rail corridor, as Governor Rendell just spoke, 
over the past few years and decades.
    Nevertheless, these challenges can be overcome by consensus 
building and efforts of the government and private sector.
    Amtrak is not offering a true high speed system now. High 
speed trains regularly operate at speeds of 185 to 250 miles 
per hour. Although Acela is the best that Amtrak offers, it 
falls short of the potential of a true high speed rail line to 
deliver service to consumers and profit to its operators.
    While we strongly support high speed rail in the Northeast 
Corridor, we also support high speed rail in the corridors of 
California, Chicago and Florida. They are dependent, however, 
upon private sector investments.
    We were also delighted to see President Obama announce 
continued Federal investment in high speed rail. That 
announcement came just two days ago in the State of the Union. 
But more capital is needed. We must spark private investment in 
this industry.
    For example, the British government just recently auctioned 
off a 30-year lease. After building the HS1 system linking 
London to the Euro Tunnel, they leased it to private industry 
and recaptured $3.4 billion. It was sold to a consortium of two 
Canadian pension funds.
    This concession returned 40 percent of the original 
construction cost. That's a model that we must look at in 
developing our own public-private partnerships in this area.
    The key to success for public-private partnerships is 
lowering risk and maximizing rate of return. The incentives can 
be created through Federal legislation. In the next few weeks, 
the United States High Speed Rail Association will propose the 
Private Investment in Infrastructure Act of 2011, looking at 
the best practices throughout the country and throughout the 
world, to create specialized benefits such as guaranteed loans, 
tax credits, deferred payments and other concessions to 
increase investments in operations and construction in the 
Nation's rail lines.
    We have one opportunity right in front of us now, to create 
a public-private partnership to fill the $300 million gap for 
high speed rail funding in the state of Florida. The private-
public partnership team that developed that model will be 
successful in bringing high speed rail, not only to Florida, 
but throughout the Nation.
    We believe in this association that market forces will make 
the business case for high speed rail and fill the $300 million 
gap needed in Florida to bring high speed rail to that state.
    In closing, Mr. Chairman, we advise the committee and 
attendees at this hearing to continue this discussion at our 
upcoming High Speed Rail Summit in Washington, D.C., February 
8th, 9th and 10th on Capitol Hill.
    Thank you, Mr. Chairman, for your time and leadership; and 
the High Speed Rail Association is looking forward to working 
with you in the future and other Members of this Committee.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you for your testimony and participation.
    I notice that the Mayor has arrived. I'll give him a minute 
to get his thoughts ready. We'll go ahead and hear from Petra 
Todorovich. She is the director of America 2050, and she's 
representing the Business Alliance for Northeast Mobility.
    Welcome, and you are recognized.
    Ms. Todorovich. Thank you very much, Mr. Chairman. Good 
morning, Ranking Member Rahall and Members of the Committee. 
Thank you for the opportunity to appear before you today to 
discuss the future of high speed rail in the Northeast 
Corridor.
    I'm speaking on behalf of the Business Alliance for 
Northeast Mobility, which is a coalition of over 30 leading 
business and civic groups from Boston to Washington, D.C. We 
came together in 2006 to support appropriations for Amtrak in 
the Northeast Corridor, because of its indispensable role in 
the Northeast mega-region's economy.
    I am here to inform the committee of the Business 
Alliance's strong support for bringing the Northeast Corridor, 
first to a state of good repair, and to explore dedicated, 
world class high speed rail service on the corridor; in order 
to create jobs and boost the economy in the Northeast mega-
region and the Nation as a whole.
    The Northeast Corridor moves approximately three quarters 
of a million people each day to their jobs or to major downtown 
business hubs of the corridor. These movements are critical to 
the Northeast's $2.6 trillion economy, 20 percent of the U.S. 
GDP.
    Imagine if today, 750,000 additional passengers were 
suddenly added to Interstate 95 and the Northeast's major 
airports, already the most congested in the Nation. Our 
transportation networks would come to a standstill, as they 
regularly do already, because of their inadequate capacity and 
failure to meet existing demand.
    High speed rail is a way to expand capacity and economic 
growth in the Northeast mega-region without further dependence 
on foreign oil.
    In 2008, the Business Alliance strongly supported the 
passage of PRIIA, the Passenger Rail Investment Improvement 
Act, which provided a dependable rail authorization for Amtrak 
and created the High Speed Intercity Passenger Rail Program, 
for which high-speed rail funding was appropriated in the 
Stimulus Bill and the Fiscal Year 2010 budget.
    Unfortunately, we've only begun chip away at our $8.7 
billion backlog in deferred maintenance that has accumulated on 
the Corridor, due to inadequate Federal funding.
    As a coalition, our top priority has been to secure funding 
to bring the Corridor to a state of good repair, which we see 
as a Federal responsibility stemming from the Federal 
Government's creation of Amtrak and the critical role this 
Corridor plays in the economies of the 12 Northeast states and 
the Nation as a whole.
    While the immediate and urgent challenge is to maintain the 
Corridor's existing infrastructure, we are also looking ahead 
to the improvements needed to accommodate the growth of the 
Northeast economy. Specifically, we support building two new 
dedicated high speed rail tracks along the length of the 
Corridor, to significantly reduce trip times and substantially 
increase capacity, convenience and reliability, while 
dramatically enhancing the global competitiveness of the 
Northeast.
    The recent Amtrak and Penn Design studies that Governor 
Rendell mentioned have demonstrated the feasibility of building 
world class high speed rail here, slashing trip times to less 
than two hours from New York to Boston, and New York to 
Washington, while providing up to twelve high speed rail trains 
per hour, compared to the one or two trains we currently have 
per hour on the Corridor today.
    The cost, as you have heard, are estimated at $5 billion a 
year for 30 years, or about $117 billion. And upon completion, 
the Amtrak plan estimates generating a $900 million annual 
operating surplus, with revenues from fares, food and other 
services, outweighing total operation and maintenance costs.
    It also envisions an interoperable system, which new high 
speed rail lines interconnect at key points with existing 
Northeast Corridor operations, facilitating a comprehensive 
service plan.
    Such a plan will enable all communities in the mega-region 
to have access to the new service and benefit from this public 
and private investment.
    The Northeast Corridor has the population density, 
concentration of employment, connections to rail transit 
networks, and proven demand between city pairs to justify this 
investment.
    For example, the recent America 2050 study documented that 
in the five largest metro regions in the Northeast Corridor 
alone, almost 19 million people work within 25 miles of a major 
train station. More than 34 million people live within 25 miles 
of a major train station. And more than one-third of the 
inhabitants of the major metro areas in the Northeast Corridor 
are within walking distance of a rail transit station which 
connects to inner city rail stations on the Northeast Corridor.
    These figures of population and employment density around 
rail in the Northeast dwarf every other mega-region in the 
Nation. Further, as these high speed rail lines are built, they 
reinforce private investment around the employment hubs and 
train stations, insuring that population and job growth can 
occur in a way that reduces our dependency on foreign oil.
    But it is critical that we get started in building these 
plans while we still have the momentum of a new national 
commitment to high speed rail in America. Unfortunately, the 
mainline Northeast Corridor was largely excluded from major 
capital grants awarded in the first two rounds of high speed 
rail grants in 2010, because we lacked an up-to-date 
environmental impact statement for the corridor.
    A year later, the EIS has not yet begun.
    In December, the Business Alliance sent a letter to 
Transportation Secretary Ray LaHood, asking for his leadership 
to expedite the corridor-wide EIS process, and we met recently 
with his staff to discuss the details.
    We are anxiously awaiting the start of the EIS process, 
which should consider all of the major proposals for providing 
high speed rail service in the Northeast Corridor, including 
the recent Northeast Corridor Master Plan that was completed by 
12 states with Amtrak, the Penn Design Plan, the Amtrak plan.
    Once scoped, we ask for the help of the committee in 
looking at the ways the Northeast Corridor EIS process can be 
tiered and shortened so we do not waste another two or more 
years waiting for its completion to start construction.
    Finally, we do believe that the private sector has an 
important role to play beyond the traditional engineering and 
construction contracts placed by public agencies in delivering 
large capital projects, such as the East Side Access project 
before you today.
    We would like to meet with you, Mr. Chair, and the 
Committee members, to discuss specific proposals for public 
private partnerships in the Northeast Corridor.
    However, the necessary precursor to private investment and 
implementation is agreement on the vision. And for this, we ask 
for your leadership. We ask for your support of a bold vision 
for the Northeast Corridor. And we ask for you to work with the 
Northeast states and Amtrak and the business community to agree 
on a practical strategy for accommodating the 21st century 
transportation needs of the Northeast and national economy.
    Thank you very much.
    Mr. Mica. Thank you for your testimony.
    We will wait on the Mayor a second here.
    And I want to hear from labor first, and we've got a 
representative of the people who are doing all the work on 
these projects, Mr. Scardelletti. We want to welcome and 
recognize the International President of the Transportation 
Communications International Union.
    Welcome sir, and you are recognized.
    Mr. Scardelletti. Thank you, Mr. Chairman. Thank you very 
much, Mr. Chairman, Ranking Member Rahall and members of the 
Committee.
    Before I make my remarks, I want to take a moment to bring 
you greetings and from, and frankly acknowledge the thousands 
of dependable rail workers on the Long Island Railroad, Metro 
North, New Jersey Transit, Amtrak. They're all on the job 
today, up and down the Northeast Corridor, to provide safe, 
reliable transportation to our country's people; many of whom 
work right here in this building, this terminal, and many of 
whom work a couple of blocks down the street at Penn Station.
    My name is Robert Scardelletti, and I'm the International 
President of the Transportation Communications Union. Our union 
represents over 50,000 members, most of whom work together with 
another 120,000 railroad workers, who represent eleven other 
rail unions, which are identified in my written testimony.
    We work in both freight and passenger rail, as well as on 
commuter lines throughout the United States. TCU is the largest 
union on Amtrak, representing six separate crafts and classes 
under the Railway Labor Act.
    TCU has been a long supporter of high speed rail in the 
Northeast Corridor and throughout the United States. Amtrak is 
by law the Nation's rail carrier, and the only current provider 
of high speed rail through Acela Service Express.
    Amtrak and a dedicated work force will celebrate 40 years 
of service in May, after being established by Congress to 
provide a national rail passenger service to the citizens of 
our country; because, frankly, the private companies could not.
    Over ten years ago, Amtrak launched Acela Express, the 
Nation's first and most advanced high speed rail service. It 
has now become extremely popular in the region, sold out almost 
every train.
    Actually, Amtrak transports more passengers in the 
Northeast Corridor than all the airlines combined within this 
area. Most importantly, Amtrak has a dedicated and experienced 
work force: Ticket agents, baggage handlers, carmen, on-board 
service crew, supervisors, machinists, electricians, train 
dispatchers, signalmen, maintenance of way workers, sheet-metal 
workers, firemen and oilers, engineers and conductors.
    Those workers are critical to operating the current and 
future high speed rail service. You cannot oppose funding and 
then criticize that Amtrak does not provide a good service. If 
our country is committed to providing a world class high speed 
rail system in the Northeast Corridor, than it needs to treat 
Amtrak as an asset and provide Amtrak with a dedicated, long 
term funding source.
    The government should expand on Amtrak's success and 
embrace their vision for a more ambitious high speed train that 
will travel the Northeast Corridor up to speeds of 220 miles an 
hour, significantly cutting trip time.
    Amtrak's plans would be a major step forward in building 
the Northeast Corridor for the future; and yes, the plan 
requires a major commitment by our government.
    This new high speed rail system will create thousands of 
new jobs. These are jobs, under the rail laws of the United 
States, that will be good paying jobs with benefits, the kind 
of middle class jobs the country needs. In other words, the 
kind of middle class jobs to sustain and fulfill the American 
dream.
    Congress must reject privatization of the Northeast 
Corridor. We know from experience that passenger rail is better 
left to the public sector. This is because of the unique safety 
and security concerns associated with high speed rail.
    To achieve quality high speed rail service, significant 
ongoing investments must be made in rolling stock, signal 
equipment, stations, tracks and employee training.
    It is unfortunate that Amtrak could not be part of this 
hearing today to brief the Committee on its plan for the future 
of the Northeast Corridor and the NextGen High Speed Rail 
service. While this service can and should be expanded, we do 
not understand how the public will benefit by allowing a 
private operator to take over one of Amtrak's most successful 
routes.
    In conclusion, the framework of successful expansion of 
high speed rail in the Northeast Corridor for the coming 
decades is already in place. Amtrak in this proposal is treated 
as a national asset to be used to its fullest potential.
    And one more comment. A lot of comparison was made to 
Communist China. They won't need an immediate environmental 
study. In fact, they don't need anything. It's a dictatorship. 
If they want to put a train line through your house, your house 
is coming down, like they did when they built the Three Rivers 
Gorge electrical plant. Tens of thousands of citizens, whatever 
they call them in China, were evacuated, whether they wanted to 
or not.
    So I don't believe that it's proper for our government to 
compare ourselves to a Communist regime.
    That's all I have. Thank you.
    Mr. Mica. Thank you for your testimony.
    Now, we have in our midst probably one of the great 
political leaders in the country, and I have had the 
opportunity to work with the Mayor of New York and Governor 
Rendell, both of them, along with Governor Schwarzenegger from 
California, who led a national effort to bring high speed rail 
to the country.
    I can't tell you how much I appreciate the leadership of 
Mayor Bloomberg. We would not have the provisions in the PRIIA, 
the Passenger Rail Investment Act, it would not have been 
signed into law in the last administration without his help, I 
can tell you that. And I salute him today. The last time when 
we came together we had to delay our meeting. He had an 
emergency. This Mayor takes care of his city. The city is 
first.
    I remember that day, Mayor, you had a collapse of a crane, 
people were killed, I think, and injured. And we delayed our 
meeting. Then we spent quality time. And a lot of politicians 
give you a lot of hot air, and they pat you on the back.
    And within, literally, a few hours' time after we finished 
our discussion, he was supportive of the effort. I was in the 
minority. I couldn't have done squat without this guy. And he 
helped us to move that Federal legislation forward.
    We have not passed a passenger rail reauthorization in 
eleven years; and it wouldn't have been done without Mayor 
Bloomberg.
    Now, here I am, Mayor. I hope this isn't an omen, but today 
you've had another serious natural challenge. But you've met 
it. I got up this morning and looked out of my hotel room and 
then you see again, members who haven't been here, the splendor 
of one of the great cities in the world, and this financial 
center. And I'm so frustrated that it's not connected by true 
high speed rail.
    Mayor Bloomberg, Governor Rendell has said he agrees with 
everything you said; and you haven't said it, but I wanted to 
let you know.
    Again, I can't thank you enough for your leadership, for 
your being with us today. I know you have a limited amount of 
time, so we're going to recognize you with as much time as you 
need. And thank you for being here today. We look forward to 
hearing the other witnesses also.
    Welcome, and you are certainly recognized.
    Mr. Bloomberg. Mr. Chairman, thank you very much for those 
kind words. They were not deserved. My recollection is that the 
last time you were here we had Florida weather for you. Your 
wife was here helping our economy, and Governor Rendell as 
well, what he'd rather do when he's here, spend money so he can 
generate sales tax revenue. That's the way we pay our people.
    And I just want to say thank you to and to Ranking Member 
Rahall for inviting me, and Subcommittee Chair Shuster; and 
Jerry Nadler, my Congressman.
    I apologize for being late, but I've been up since 4:30 
this morning implementing the mayor's program to prevent a 
drought this summer. People call it snow, but we have to look 
on the bright side.
    Anyway, it's appropriate that you're holding this hearing 
in Grand Central. Like the Erie Canal or the Transcontinental 
Railroad and the Interstate Highway System, it is a monument to 
our Nation's tradition of dreaming big and investing in our 
future. Together, the transportation networks opened up new 
markets and made us the global economic superpower that we are.
    But that was a long time ago. And today, our Nation invests 
just over 2 percent of our GNP in infrastructure; while Europe 
invests at least twice that rate, and China almost three times 
that rate.
    In 2007, I visited Shanghai and I landed at the airport and 
got on what they call a Maglev train, a magnetic levitation 
train that travels at--I think it was running at a slow speed, 
because at night it was going only 250 miles an hour. I had a 
full cup of coffee and I watched the clock when I started, took 
the trip and landed. It didn't vibrate once. It was really 
quite amazing.
    Other countries are trying to do the same thing, create 
other modes of transportation that are much more efficient, 
much more rapid and answer the needs of a global world. And 
Asia, Europe and the Middle East, they're building bullet 
trains and we're just sitting here. What is America waiting 
for?
    I don't want to spend money we don't have. I'm sympathetic 
to the cost of debt. I'm sympathetic to encumbering our 
descendants with the cost of building things. But this is not 
wasted money. Infrastructure is one of those things that gives 
us a future.
    And I would venture to say no one here remembers whether 
Central Park was built on time and on budget; whether the Erie 
Canal or Transcontinental Railroad, any of these things that 
transformed this country and transformed the world, were on 
time and on budget.
    The bottom line is, there are certain infrastructure things 
that you just have to do. I couldn't be happier to be partners 
with Governor Rendell and Governor Schwarzenegger in trying to 
urge this country to make those kinds of investments. They are 
our future. And if we want to leave our children something, we 
want them to be able to look back and say ``You are the parents 
who had the courage and the foresight to dream big and to go 
ahead and do things,'' where maybe there at the time we have to 
raise some money, somebody else is there at the time we finally 
cut the ribbon; but at least we've done the right thing.
    We have a bipartisan coalition Ed and Arnold put together, 
called Building America's Future. It's been working to build a 
consensus around this country, and your committee's strong 
interest in high speed rail is something that I'm glad to hear. 
The consensus is emerging around the Nation that it should be 
built here in the Northeast.
    As you know, the Northeast is the Nation's largest economy. 
The region is home to the Nation's major centers of business, 
government, finance, medicine, entrepreneurship and education. 
And it is where you have multiple cities very close together, 
where rail does make some sense.
    Other parts of our country, the cities are far apart and 
there are other alternatives. We have 162 Fortune 500 companies 
who make their headquarters here in the Northeast; and 7 of the 
world's top 20 research universities. They have to be able get 
around, and they have to be able to attract the best and 
brightest from around the world if we're going to have a 
future.
    Most of our population is in dense cities, close enough to 
each other to travel by trains, much more convenient than 
flying. And Europe is a good example. They do not have short 
flights. They have come to rely on trains that are reliable and 
affordable because they've had the courage to make the 
investments.
    At the same time, because all of this activity, the 
Northeast is approaching, you should know, a transportation 
crisis. Our airports are among the most clogged, our highways 
are among the most congested, and our train corridor is among 
the most heavily used in the country.
    And all of that is just going to get worse as the regional 
population is expected to grow by 40 percent by the year 2050. 
That doesn't just affect New York, it affects the whole 
country. As Chairman Mica noted, the New York clogged airports 
are responsible for flight delays around the country and around 
the world.
    If you want to reduce those delays and engineer growth 
driving the American economy, you need to unclog the fuel 
lines. And I think one of the best ways is with high speed 
rail. High speed rail adds the equivalent of about 1900 lane 
miles of interstate, except of course this would be interstate 
with a speed limit something like 220 miles an hour, which 
really make an enormous difference.
    High speed rail in the Northeast would be a boon for our 
region and country in other ways, as well. It would generate 
tourism and travel, raise property values, cut pollution and 
our dependence on foreign oil; and by reducing congestion on 
our highways and our airports and on our commuter trains, it 
will increase economic activity. We estimate that high speed 
rail would generate more than $7 billion of economic activity 
and create 100,000 new jobs by the year 2040.
    Because the businesses and industries are brought closer 
together, they inevitably see greater profits, creativity and 
greater productivity.
    President Obama and Congress have taken the first good 
first step by allocating $10 billion for high speed rail. And I 
was encouraged the other night when the President affirmed his 
commitment in his State of the Union speech, setting a goal for 
80 percent of Americans to have access to high speed rail 
within 25 years.
    That is certainly a laudable goal. But we all know that the 
money isn't there for that yet. So we ought to start with what 
makes sense economically right now. I think at the moment it's 
fair to say we're not doing that. Funding for high speed rail 
projects has been divided across 36 states, spreading our money 
so thinly we run the risk of achieving nothing at all.
    In fact, the current Federal plan allotted just over 1 
percent of all high speed rail spending for the Northeast, and 
that simply doesn't make any sense; especially because the 
Acela at the moment is the only profitable line run by Amtrak; 
and the Northeast is the only corridor that has demonstrated a 
high demand for high speed, at all.
    What we need is a new approach to spend the Transportation 
Department's money, one that is not dictated by politics, but 
based on economics. You might not get all the high speed trains 
you want, but we will get the high speed trains we need.
    I understand the politics. Everybody in this country has 
got to pull together. Everybody contributes and everybody wants 
to get the benefits. But in some cases the benefits are going 
to be in one part of the country and then they'll spill over 
into others. In other kinds of endeavors, like the Interstate 
Highway System and building airports, every city can share in 
that.
    But high speed rail only fits certain parts of the country, 
but it is something that's good for all of us.
    Before I close, let me just mention one final idea that we 
should explore, to see the feasibility. High speed rail could 
cost over $100 billion and take a generation to build. While 
government should take the lead, we should make sure that we 
have the structure and rules in place that don't discourage 
private investment.
    I listened to my friend down on the left and there is the 
argument for public transportation, and there is the argument 
for private transportation. I take public transportation to 
work every day. The subway works fine, it's a public system. 
I've always thought that it is very well run. Jay Walder came 
up with me. He's the guy who runs the MTA.
    But there are also places in this country where we've had 
experience with the private sector. And just don't have the 
luxury of ruling out anything. Competition is good. I think the 
best thing for government is to have the private sector compete 
with government. That's what holds our feet to the fire, that's 
what makes us more efficient and more accountable.
    And this country really does need to make smart investments 
in the 21st century, but we don't have all the money, we don't 
have enough money. So we do have to reach out to the private 
sector, as well. High speed rail in the Northeast Corridor, I 
think, is one of the smartest investments we can make.
    And it really is the the future. So thank you very much. 
For those of you who don't live in New York City and perhaps 
it's one of the first times you've visited, welcome. I 
represent 8.4 million people who want to say thank you to all 
of you for everything you do. We always go to Congress to ask 
for things. We seldom go to Congress to say thank you, but we 
have a lot to be thankful for from Congress. And Jerry, thank 
you in particular for all you do to represent us.
    Thank you.
    Mr. Mica. Thank you, Mayor, and thank you for your 
leadership.
    What we'll do is, change the order a bit. We have a couple 
of our senior members with all our junior members here.
    I will recognize Mr. Nadler. He's up for either comment or 
question. Mr. Nadler, thank you for having us here in New York.
    He's a senior member. I worked with him on the 
Transportation Infrastructure Committee.
    Mr. Nadler. Thank you very much. Let me ask for consent to 
include my statement for the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Nadler. Thank you.
    Obviously, we need high speed rail. Obviously, what 
Governor Rendell said and some others, about not diffusing 
efforts to get visible results, it makes sense. Also, to build 
a constituency where the American people see that they're 
getting something for their money and see real results. Then 
you can start getting someplace else, too.
    Also, obviously, we are in a situation where there's a lot 
of austerity people talking are talking about. I don't agree 
with some of it, but some of it is obvious. And the 
Republican's committee suggested zeroing out Amtrak again, 
doing no high speed rail. I hope the Republicans as a whole 
don't go along with that; who knows. It's a situation that 
makes it daunting to get these funds.
    And I have a couple of questions. First of all--I forgot 
who commented on this--why can't we start some of the projects 
that will be good, either if we develop the separate high speed 
rail or if we don't?
    In other words, projects that are necessary, cost money to 
bring the corridor up to good repair and to improve the 
existing corridor; but will also be necessary as precursors to 
a new high speed rail system. Why do we have to wait for an EIS 
on that? We should be able to go ahead with that rapidly.
    And my second question is: Yes, we clearly want the private 
sector involvement to the maximum extent we can get it. But, as 
we saw, no private company submitted any kind of bid for the 
Northeast Corridor high speed rail. We put up the bid.
    The question really is, how can we get the private sector 
to cooperate with the public sector, because neither is going 
to do it alone?
    Mr. Mica. Ms. Todorovich.
    Ms. Todorovich. Thank you, Chairman.
    Yes, Congressman, I can address the first question. We do 
believe the Northeast states may proceed in completing projects 
on the corridor that are already covered by existing Northeast 
Corridor EIS, completed, I understand, in 1978 or '79.
    Between that EIS and other EIS's in the corridor, there are 
projects such as signaling systems and overhead catenary 
replacement that can get started right away. And what needs to 
happen is, those projects need to be identified. Someone needs 
to do that work.
    There was recently created the Northeast Corridor 
Infrastructure and Operation Advisory Commission, which was 
created by PRIIA, and which includes a representative of each 
of the Northeast states, Amtrak and the FRA.
    That commission could be the commission to do this work. 
They've only had two meetings yet. The next meeting is March, I 
believe. And they haven't really gone through that process yet. 
But we would encourage them to get started right away, working 
with the FRA. We think the FRA would provide leadership on 
this.
    Mr. Mica. They will be at our discussion, which will 
proceed after this hearing.
    I might, as a general member, yield briefly. On the no 
private sector proposals coming in--and I share this with the 
ranking member. Having drafted those provisions in law, I 
followed it very closely.
    I can tell you, everything was done to discourage and 
dissuade, and actually make certain the private sector did not 
offer a proposal.
    If I have to, I will subpoena people in and we will reveal 
what took place. I don't want to have to do that, but I'm 
telling you it's not going to happen again, and we will have a 
private public partnership considered and the opportunity to 
compete.
    And for the labor brothers and sisters that are listening, 
they can take it from me as the chair of this Committee, that 
we will protect their position. And whatever construct is 
brought forth, they will be protected.
    But if you leave things the way they are going--when I came 
on the Committee we had 29,000 Amtrak workers, and we now have 
19,000. If that is the future people want to look to--and not 
have high speed rail, true high speed rail, to see increasing 
employment and opportunities for these workers, and make 
certain they get the benefits and salaries and see the future 
they deserve.
    Sorry, Mr. Nadler, I took some of your time. Your time is 
not expired.
    One more question from other members.
    Mr. Rendell. Number one, we will not come up with the money 
for a project like this without private sector involvement. 
What I'd say to my labor friends is, I'm a good Democrat and 
give labor support all the time. That's a fact of life.
    Chairman Mica is right. The number of jobs will grow, two 
and a half million new jobs if we do this corridor project 
correctly. A lot of those jobs, the vast majority, will be 
union.
    Secondly, private sector's rate of return. On small stuff 
you can't get the rate of return. In Pennsylvania, we had 
plenty of offers including a top bid was * * * billion dollars; 
because there was a predictable rate of return. High speed rail 
is different than a turnpike or a highway. But the projections 
and the studies have shown across--the Acela is profitable.
    This, over the long run, could be extremely profitable. I 
think the Mayor said almost a billion dollars a year in profit, 
operating profit. We can get plenty of private sector interest 
in that.
    Mr. Mica. We want to go through the panel and try to get 
everybody in the discussion. We have another senior member, the 
gentleman from Tennessee. I'm going to yield to him and also 
yield the chair to him for a couple of minutes. And then we 
need to go next to our members.
    Mr. Duncan. Thank you very much, Mr. Chairman. I thank all 
the witnesses for very helpful testimony. I have one question. 
It has, really, two parts; both relate to cost.
    First of all, we heard today about the fact that it would 
cost $117 billion, specifically, to build this over a 30 year 
period. Realizing it's very, very difficult; in fact, it may be 
impossible to really estimate what the cost will be 20 or 30 
years from now.
    And most transportation projects, the Big Dig in Boston is 
a prime example, cost way more than what we originally 
estimate. What can be done to see that these costs don't far, 
far exceed what the estimates are at this moment in time?
    Secondly, I think Mr. Nadler started to touch on it. The 
newest Fenway Airport is a few years old. It took 14 years for 
completion. It only took 99 construction days, and the delays 
were almost entirely because of environmental laws, rules and 
regulations.
    What can we do? We are taking two to three times as long on 
all types of transportation projects because of the 
environmental rules and regulations. Mr. Scardelletti touched 
on it. He said dictators do it faster. Even nations with 
dictatorships do it much, much faster.
    Mr. Rendell. Let me answer the first. Pennsylvania is 
number one in Congressional ratings for a state spending 
stimulus highway and bridge money. The reason we did is, I knew 
the stimulus was coming, I got the contractors in and got the 
bureaucrats in.
    And I said to the contractors, ``We're putting out an RFP 
for this work. You're not going to get 120 days to respond. You 
guys want work, you'll get 30 days to respond.''
    ``Bureaucrats, you are not getting 90 days to review it. 
You'll get 45 days to review it.''
    Guess what? They did it. They did it. We build in such 
incredible time gaps developing EIS, it's just untenable. It's 
not necessary. One of the things that you must do in any 
infrastructure project, high speed rail, anything else: Do 
legislation not to eradicate EIS, but to make them more timely. 
You can do that.
    I always say if someone walked into a law firm and said, 
``I need an opinion on this complex matter by Tuesday,'' and 
it's Thursday afternoon; the head of the law firm says, ``Our 
law firm's got the highest reputation. You'll never get that in 
four days.''
    If that person pulled out a check for $2 million, my guess 
is that everyone in that law firm would be working 24 hours a 
day for the next four days.
    There's no excuse for the time it takes. We are not a 
dictatorship, we're not abusing people's rights. If you examine 
the EIS process, walk the EIS to its end, it will drive you 
crazy.
    The time it takes to do things can be done in a much 
shorter timeline. To rebuild the bridge in Minnesota, do you 
know how long it took? Anybody on the Committee?
    Voice. 437 days.
    Mr. Rendell. A brand new bridge in Pennsylvania takes a 
minimum of two, two and a quarter years. If we want to, we can 
do it.
    Mr. Bloomberg. The Empire State Building was built in one 
year. I think it was actually one day short of a year. In New 
York City we have an environmental agenda that I think is 
probably more aggressive than anyplace else in America that I 
know. We really care about the air we breathe and the water we 
drink and the future we're going to leave our kids.
    And yet, with all of that, we've done an awful lot of 
projects. Every one of our 1400 bridges is up to standard. 
We're building a new water tunnel, we're building two new 
subways. You can get it done.
    But let me address the first part of your question as to 
why these projects are so over budget.
    I'm old enough--I grew up in Boston. I remember, not the 
Big Dig--I remember when the Southeast Expressway was first put 
through and they ripped down the North End and everybody moved 
out from Medford, where I lived. The project went through a 
whole cycle of a road being built and then being torn down and 
buried.
    I think the real answer to your question is that people are 
afraid of big projects, they're afraid to actually give a real 
quote for what's likely to happen with mission creep as you add 
new things. And in the real world nobody is going to stand up 
and say, ``OK, let's do it.''
    So the only way, in a tactical sense, to make progress is 
to start out with a quote that we all sort of know is very low 
and unrealistic in time and in money; but that at least they 
get it going.
    And we can later on yell and scream and ``should have'' and 
``would have'' and ``could have''; but at least we have the 
project done. That is true with big software projects, that's 
true with big construction projects. We're just not politically 
willing to be realistic and--wink, wink, it works.
    Mr. Duncan. We need more penalties.
    Mr. Mica. We're not going to speak to that, because I want 
to get through the members. I've got a number of upstaters. I 
was born in Binghamton, a salmon that swims upstream back to 
New York.
    We have Mr. Hanna, a new number from upstate New York. Let 
us recognize him for a question or comment.
    Mr. Hanna. I defer to my friend Tom.
    Mr. Mica. We've got another New Yorker. I'm proud to have 
more New Yorkers. Let's go to Mr. Reed. And Mr. Reed is the 
Vice Chair of the Rail Committee; and he is from the Rochester 
area.
    Mr. Reed. Corning.
    I'm a fellow Mayor, and I share a lot of his concerns. It's 
much different in the city of Corning.
    The question I have is, I'm in a public private 
partnership, and I think Mr. Hart touched on it a little. He 
referenced the British sale recently.
    I've always tried to look down over the horizon. And under 
those sessions, under those sales, was the discussion or the 
agreement ironed out, about who is going to take care of the 
maintenance and replacement after we build this?
    Say we build this in the next 30 years. Who is going to 
take--across the public and private partnership, P3--who takes 
responsibility for maintaining and improving that down the road 
in Britain, and do they incorporate that in their agreements?
    Mr. Hart. Yes. On point with Congressman Nadler and Duncan: 
You can build that into the concession, into the agreement; and 
they are doing that in Florida now. Passing through the risks 
factors in construction, passing through the operation and 
maintenance obligations to the private firms, to help bring the 
contracts to certainty. That's how you keep it on time, on 
budget.
    Because the private sector is good at limiting their risk. 
Once they have a contract and an obligation, they'll see to it 
that the operation is done on time.
    What is particularly impressive about the systems in Europe 
and some in Asia, if you are operating a train, a high speed 
rail system, and you're five minutes late in arrival, they will 
refund your money 100 percent.
    Can you imagine that type of obligation being readily being 
accepted by the private sector American transportation system? 
They will do that if they have the opportunity to manage and 
operate the system from inception, and they understand the 
rules of the game at the beginning.
    So yes, sir, that's a good idea to reduce risk and increase 
certainty by bringing in the private operators.
    Mr. Rendell. We were not going to sell the Acela, we were 
going to lease it; which meant we controlled how fast the tolls 
would go up, we governed part of the contract. We controlled 
and oversaw the schedule of maintenance.
    Now if you sell it, you're counting on the private sector 
to maintain it by itself. And you might say, the private sector 
will not maintain it, it's all about maximizing profits.
    No; because if they want people to ride the train, as 
opposed to driving, that system's got to be well maintained and 
function to arrive on time. The profit motive is built in. But 
if you're really worried about maintenance, you lease these 
projects, and the government has control over them going 
forward.
    Mr. Mica. Thank you.
    Let me yield next to Mr. Meehan from Pennsylvania, a new 
member of the Committee. And you can give an opening statement 
or ask a question.
    Mr. Meehan. Thank you, Chairman Mica, for the opportunity 
to be part of this very important moment. And I appreciate that 
Governor Rendell took the time to come and took two different 
subways to get here. I'm noting how life changes when the state 
police aren't here. The governor's been a great proponent of 
transportation in Pennsylvania.
    We asked this question a couple different ways, Governor. 
But I worked on the one thing that, really, I think addresses 
the major concern all of us are going to have as we look at 
funding long term commitments to transportation.
    I'm aware right now that lot of the way that we fund 
transportation now is through taxes, which frankly is going 
down. We lost $35 billion dollars, which is a good thing, I 
guess, since we're not consuming as much oil.
    But what have you learned from the work you did when you 
tried to look at a way to make the turnpike operable? That 
would give a sense of being close as you can guarantee those 
nay sayers, that the private sector will step in and give you a 
sense of confidence in the financial commitment that allows you 
to match that with the government commitment?
    Mr. Rendell. Three things.
    One, the government will lease and not sell.
    Two, we were prepared to do what Congressman Mica said with 
the unions, we were prepared to guarantee rates of employment 
in the contract lease, the contract with the private operators.
    And three, we're going to control the rate of return by 
agreeing to follow a schedule. And if you do sell--I'm not 
saying necessarily you should--you've got sudden competition.
    If you are a private operator of the Pennsylvania Turnpike, 
you want to maintain that very, very well, because as you know, 
Congressman, there's I-80, just above the turnpike, and it is 
free. So you better maintain it well or people will drive on to 
alternate routes. That's number one, and I think it's very, 
very important.
    Two, in terms of how we finance, the private sector has to 
be part of it. I sound like a broken record, over and over 
again. You all realize that * * * The only political 
subdivision in this country that doesn't have a capital budget? 
Mayor Bloomberg would not have done the incredible things with 
New York City infrastructure without a capital budget.
    For the first time, Pennsylvania is decreasing the number 
of structurally deficient bridges, 1600 bridges at the same 
time, because of the money invested in our capital budget and 
because of the stimulus.
    The Federal Government is the only political subdivision 
without a capital budget. It pays for paper clips with a 40 day 
life span the same way it helps to build bridges with a 40 year 
life span. No business would do that, no other government would 
do that.
    I know that the OMB and CBO want a capital budget. I think 
Congress should take control away from the bean counters and do 
what everybody else does; get a capital budget. The American 
Society of Civil Engineers says we need $2.2 trillion just to 
keep the American infrastructure in fair condition. That's not 
even talking about high speed rail.
    If you did have a capital budget, $2 trillion, $3 trillion, 
it would be doable. We would figure that we're going to need so 
many jobs, we'd revitalize American manufacturing. I can't 
understand why nobody pays any attention to the capital budget.
    Mr. Mica. The Mayor has asked to respond.
    Mr. Bloomberg. There's a difference between government and 
private development. The private side has some capital, there's 
additional sources of capital. There is expertise, from my 
experience, in both the private sector and the government, and 
you can get expertise in either one.
    So what are the real differences? There's two things. Being 
able to adjust the size of the work force to the need, and 
being able to charge whatever the market will bear. If you 
don't want to have those two things--it's a perfectly 
reasonable position--then the taxpayer is going to have to 
subsidize it.
    And the taxpayers have got to decide, do they want to 
guarantee jobs and do they want guaranteed below market rates 
for what you charge straphangers and people who go through toll 
booths, or people who get water by the gallon? Or do they want 
to let the markets do that? But you can't have it both ways. 
Those are four reasons, four differences between the private 
sector and the public sector, for financing any of this stuff.
    Mr. Mica. Thank you.
    I recognize now the gentleman from Ohio, Mr. Gibbs. He is 
the new chair of the Water Resources Subcommittee. Our 
Committee welcomes you. You're recognized for an opening 
statement or question.
    Mr. Gibbs. Thank you, Mr. Chairman. It's a pleasure to be 
here for what's going on in this corridor. It's interesting to 
realize this corridor was part of the congestion, and I agree. 
That's the reason why I'm here from Ohio.
    I guess I wanted to try to expound on it a little bit. I 
think Mayor Bloomberg kind of hit on it the most. I was in the 
Ohio Senate last year and served on the Transportation 
Committee. And I was really concerned about the proposal that 
came to Ohio as part of that $8 billion from the Feds, and $400 
million from Ohio, to build quote, what they think is high 
speed rail.
    It turned out it wasn't going to be high speed rail in 
Ohio. It was 39 miles average speed.
    And the second lesson to be learned is, it was going to be 
on the freight system.
    The question was, who is going to have priority, freight or 
passenger? I think everybody here pretty much said--I know the 
governor did--it has to be a separate system. I agree with 
that.
    I think we have to keep in mind the situation the Federal 
Government has gotten themselves into now, budgets and economic 
deficits and debt. And I think that to move forward, there's 
going to have to be a public private partnership. I don't think 
we can expect the taxpayer to do everything. I think Mayor 
Bloomberg hit on that a little bit. We have to work on that.
    So I think that one lesson I learned in Ohio, we also have 
to have connectivity. You can't build a high speed rail system 
from Point A to Point B and don't have place for people to go 
off the high rail system. That's what you've got here, 
Washington, D.C. to New York, you've got a place to go. I think 
that's great. We didn't have that.
    I want to say, too, we have to make sure there's a proposal 
out there that makes economic sense. The private sector has to 
buy in and be part of that partnership. And when you move 
forward across the country, you diffuse, dilute the funds, as 
mentioned. In Ohio we're glad we have a new governor who's 
returned that money, not * * * To cost more money to begin 
with.
    So you lose credibility when you advocate for high rail, 
press for a project that doesn't make any economic or common 
sense. So I'm glad to hear that. We can move forward and have 
projects that make sense and private sector capital is 
involved, with private business can have competition, and then 
that might be something to look forward to.
    But my second reason for being involved in this is because, 
as Chairman Mica said, 70 percent of the air traffic congestion 
problems arise in this corridor, and has an impact throughout 
the country.
    Mr. Chairman, I don't have a question.
    Mr. Mica. Thank you for your statement and participation.
    I yield next to another subcommittee chair. The gentleman 
from California who is going to chair the Economic Development, 
Public Buildings and Emergency Management Subcommittee of the 
House Transportation Committee; the gentleman from California, 
Mr. Denham, for his opening statement or question.
    Mr. Denham. Thank you.
    Good morning. I represent an area in California recently 
granted a large sum of money for high speed rail. It is being 
started in a small town called Borden, which I represented for 
eight years now. The problem was, I went and asked anybody in 
my district where the town of Borden was. They said that was 
the town that was there 70, 80 years ago.
    So my concern is, as we move forward, my question to Mayor 
Bloomberg and Governor Rendell, as co-chairs with Governor 
Schwarzenegger of the organization Building America's Future: 
What is the goal of this organization, and how important is it 
to build America's future to achieve high speed passenger rail 
in the Northeast Corridor? And what safeguards are put in place 
to insure that decisions aren't made out of the blue for 
political reasons, or money being spent--an expanded budget 
that continues to grow outside of what the taxpayers already 
approved?
    Mr. Rendell. There is no question that's a problem. If we 
see a problem it doesn't make any sense to spend a whole lot of 
money for low speed; it's not going to accomplish anything. We 
know how precious dollars are. We want every dollar to be spent 
well and bring us maximized return on our investment.
    The answer to your question is, problems like this, in my 
judgment--I'd like the Mayor to follow up. We think projects 
like this should have to go to something like a National 
Infrastructure Bank. The President has talked about creating 
one. It should be staffed by transportation experts, former 
state DOT directors, academics, people who work in the 
business, people from finance. They would make the decisions, 
totally devoid of politics; and employ a cost benefit analysis. 
The Penn study did a great cost benefit analysis.
    That's how major transportation projects should be decided. 
Not who's a powerful Congressman--no offense to the men and 
women on this panel--but it should be on a cost benefit 
analysis: What is the national benefit? What is the regional 
benefit? What is the economic benefit? What is the 
demonstration benefit?
    It can only be done by taking it out of the political 
process. Who would set the criteria for an infrastructure bank 
and make its decisions? Congress. You would write into the bill 
an agency that creates what the infrastructure and the criteria 
could be; even decide what the weighting would be. Improvement 
of the environment, reduces CO2 to the environment. There has 
to be criteria taken into consideration.
    Benefit to existing business, cutting cost, that would be 
considered. All things that enter into cost benefit analysis, 
that's how we should be deciding major projects.
    By the way, that is not in any way an expression of lack of 
confidence in the men and women of Congress.
    Mr. Bloomberg. I would answer differently. I think if 
there's a local interest with their money on the line, they 
will insure that the project has some value. They may make 
mistakes. But you want to get it down to the lowest level of 
whatever you're trying to build is actually used.
    So, I've always thought that Congress made a terrible 
mistake with all the stimulus money by not having a local 
component. ``You'll have X dollars, but you have to put in a 
certain percentage of that yourself.''
    That's local politicians, the local public, the local 
community boards, the local press, would insure there is a need 
for the project; because they would have some of their own skin 
in the game, if you will. Instead, Congress comes and says, 
``We're going to build something,'' and you find out that the 
town wasn't there for 70 years.
    Get down to the operating level, and then you will get a 
lot more real feedback in terms of whether it's a valuable 
project.
    Mr. Rendell. We have a very significant match, and the 
local has a much greater share * * * Transportation project * * 
* Federal Government share.
    Mr. Mica. Thank you.
    I yield to the gentleman from Minnesota, and he is the new 
vice chair of the Aviation Subcommittee, Mr. Cravaack.
    Mr. Cravaack. Thank you. I want to be the first guy not to 
have to tap his microphone this morning.
    Thank you, Mr. Chairman. I appreciate the time. I thank the 
panel. I appreciate your being here today and taking the time 
from your valuable schedule.
    I truly admire the passion that you all have for the 
Northeast Corridor; and I applaud the move of the government 
and/or private sector cooperation.
    But I also come with a caution. I come with a caution from 
the American public who sent the 112th Congress to Washington, 
D.C. to be fiscally responsible. And my question is--and it's a 
generic question:
    Where will it leave the Nation in order to come up with the 
financing? How much more are we going to borrow from--as Mr. 
Scardelletti so aptly put it--from Communist China?
    How much more in debt is this Nation going to become, which 
is now rapidly approaching our gross domestic product?
    So I applaud and I therefore strongly encourage this 
distinguished panel, so that we all can advance this project 
forward, to seek a private sector competition and to invest and 
attain the best transportation system at the most efficient 
cost to the American taxpayer.
    Additionally, I applaud--I thought my name was hard--Ms. 
Todorovich, for bringing up another point of government 
bureaucracy in the environmental impact study and how long it's 
taken to obtain this.
    I would look very well into trying to expedite this project 
and trying to get an environmental impact statement out to the 
public, so we can start moving this project forward. We in 
Minnesota have our own challenges with environmental impact 
studies, as well. So I agree with you wholeheartedly on that.
    So, bottom line is, I thank you very much for the passion 
that you all have. I look forward to this committee and working 
for this project and maintaining a fiscal responsibility to the 
American taxpayer.
    So thank you.
    Mr. Rendell. On the debt issue, we've run up a lot of debt 
very recently and gotten very little for it. Give us the debt 
to do this work, this infrastructure, and you will get millions 
of new jobs, we will get the revitalization of American 
manufacturers. That's important. It is probably the number one 
issue in the mind of the public right now.
    Number 2, the November 2010 election. Deficit reduction and 
spending cuts were paramount in the election itself. Yet 61 
percent of transportation ballot initiatives were approved by 
voters throughout the country by an overwhelming amount of 64 
percent yes votes, for either increased tolls, taxes or 
increased borrowing.
    The American people get investing in infrastructure as 
something important to them, to their quality of life, to 
public safety, and to job creation, real, good paying jobs, as 
the union representative said.
    So if we're going to have debt, let's get something in 
return on the investment.
    Mr. Mica. Thank you.
    Waiting patiently for his opening statement or question, 
the gentleman from Indiana, Mr. Reed. I thank you for your 
patience.
    Mr. Reed. Thank you, Mr. Chairman. I'm happy to be here in 
New York City. As the Chairman said, I'm from Indiana, and my 
governor and the state has done a few novel things with the 
infrastructure in my state. It's called for major moves that 
resulted in now over 200 infrastructure project being funded, 
primarily by the turnover of the management of the interstate 
highway system in our state to a private company, leaving the 
state government with almost $4 billion being distributed, as I 
said, to 200 projects across the state.
    My question is for Mr. Scardelletti. Related to the fact 
that I grew up in Illinois, my dad was a coal miner, I was 
raised with respect for the workers. And I'm here today because 
of my dad's well paying job in the coal mines.
    That being said, I'm also familiar with the history of the 
safety record of the coal mining industry, starting out in the 
early part of the 20th century; and the government involvement 
in regulation and work rules which have been developed over the 
years, to help make the work environment very safe in that 
industry.
    And my question is: On public-private involvement in 
projects such as that, does it matter if there are good jobs 
for the government or good jobs for your members working for 
the private sector at the organization level?
    I'm curious why there would be resistance to any job 
creation, whether public or private, and what the downside to 
that would be; knowing that, in my view, local, state and 
Federal Government has passed laws historically to promote 
worker safety and worker rights.
    So, thank you.
    Mr. Mica. Thank you. I want to thank each of our panelists, 
too, for their participation. I want to go now to questions.
    I owe a public apology to Ms. Hayworth as she didn't get to 
make a commentary. I didn't realize she had to leave early. 
She's not on the panel but she was great to come out today in 
support of this effort, and I request unanimous consent that 
her statement be made part of the record without objection.
    So ordered.
    Now I'll go to questions, a round of questions. Ms. Brown 
has been patiently waiting to ask a question.
    Ms. Brown?
    Ms. Brown. I do have a question. First, from a previous 
statement, I want to clear something up. It's very important 
that we don't mislead the people in this room. When we came up 
with the $8 billion dollars, we received, the Federal 
Government received, the Department of Transportation received, 
over 270 applications.
    And keep in mind, those proposals were put together by 
region. When the person said he didn't know, he was just 
elected. Keep in mind, that mayor, that community, put in an 
application. We didn't just award a grant. It was applied and 
they went through an extensive study. Just to keep the record 
straight.
    And when you mentioned--keep in mind, whatever system we 
developed, we're looking at a system that is completely 
external. There is no system in Europe or Asia that is an 
integrated system like we are in the Northeast Corridor. So 
when we develop a system, let's keep that in mind.
    Because one of the things--this is the second time for the 
English to put their proposal out. The first time they had to 
take it back because of the number of accidents occurring in 
the system.
    So all of these facts you have to keep in mind as you 
develop a comprehensive system. Let's keep that in mind.
    Let me go to my question.
    The Republican Committee in their proposal last year, that 
would eliminate all funding for Amtrak, which we experienced 
for eight years in the Republican administration, which would 
force the railroad into bankruptcy; strand hundreds of 
thousands of commuters, and eliminate a minimum of 20,000 jobs 
nationwide.
    The Committee also proposed to resend the $2.5 billion of 
the high speed rail fund it awarded to the states that goes to 
the 2008 Federal funding level. There was no high speed rail 
program in 2008.
    My question is, how do we educate members the importance 
of--we are talking about high speed rail, we're talking about 
high speed, more speed, in all of the hearings they always talk 
about high speed is important. What is also important is 
reliable train times, knowing it will come at 8:00 every day.
    How do we develop and educate new members who may come from 
areas that don't understand the importance of developing a 
comprehensive system?
    And the union person, I also want to know whether or not 
you think that those are union jobs? Because when I travel 
those systems, it is interesting. How many jobs are in the 
system and how safe the systems are?
    Mr. Hart. Congresswoman, I'll take a quick shot at that.
    We are very focused on a public awareness campaign, and it 
is not only targeted to Members of Congress, but to the public 
in general. Most of the public is not aware of the value that 
rail transportation contributes to America. Freight rail, 
passenger rail, high speed rail. It is very important that 
people understand the benefits that rail transportation 
provides.
    And also, the outstanding record that Amtrak has done in 
certain markets. And it is not at all in the interest of 
America to zero out Amtrak's budget. It is important, though, 
that Amtrak realize it must do better in operating its system 
and upgrading its focus as a priority urgency to bring high 
speed rail to Americans.
    Mr. Mica. Mr. Scardelletti, a question was directed to you.
    Mr. Scardelletti. Thank you for you comments.
    The rail labor unions have been involved in the railroad 
industry since the 1800s. And through all these years we have 
established a wage scale and benefit level that is clearly what 
is described as middle class. And they're good jobs and most 
people who work on the railroad work their entire life; and 
then they retire on a pension that's funded by our employers 
and by the employees for the rest of their life.
    There are Federal laws, safety laws, and I don't think 
anybody can match that. But if we are privatized, the private 
sector--what I see in this scenario is, it's all about beating 
down the worker to the new wage level, which is 12 bucks. 
Everybody wants to pay 12 bucks, to compete with our friends in 
China; which is insane, in my opinion.
    You mentioned the zero funding. You work for a company that 
every year a group, the president of the United States wants 
zero funding, put you out of business.
    How in the world are you going to take that company, to try 
to make improvements, when half of the government wants to put 
them out of business? It's not going to happen. We have all 
these things you're talking about now.
    We would have them today, if a series of presidents of our 
country, both parties, would have took the initiative to say, 
``Let's invest in Amtrak and have high speed rail, like the 
French government and all the other governments did to create 
their high speed rail.'' Our country didn't do that. Our 
Congress, half for it, half against it, and we just get by. 
What we do, we get by.
    But it's been here throughout all the fights, all the 
Congresses and all the zero budgets, it's still here, 40 years.
    Amtrak still provides the best service that can possibly be 
provided under the conditions that our government mandates to 
Amtrak. You can't do all these things. You can straighten the 
rail out, you have to end all these curves in the Northeast 
Corridor, and you will get your fast trains.
    There's no will to do it from our government. It is up to 
the government. We could have had it. We wouldn't even have 
this conference. We'd have high speed rail and the other 
countries would be talking about us instead of us talking about 
them. That's what I see.
    Mr. Mica. We're now seven minutes into this, and I would 
like to yield to Mr. Shuster and then continue quickly.
    Mr. Shuster. Thank you, Mr. Chairman.
    To keep the record straight, the stimulus, as my good 
friend points out--there was criteria put in place. We think 
the FRA used, but we don't know, because they won't share that 
information with Congress--when they put those dollars out 
there, if they used the criteria to do that. I have my doubts, 
and now that we're in the majority we might be able to find out 
exactly how those dollars were spread throughout the country.
    I agree with the governor and the mayor that dribs and 
drabs around this country are not going to get us high speed 
rail.
    Respectfully, I don't think Amtrak is currently capable of 
putting this kind of program into place--maybe a partner to it, 
but I think we have to have private sector dollars invested. 
The Amtrak plan is out there, spend $52 billion for the next 30 
years. It won't get us high speed rail.
    We need to partner with private sector dollars, and to 
bring the private sector in to give them a piece of the action 
and a return on their investment. So I think there are people 
out there who are willing to do it as long as we in Congress 
and the stakeholders are willing to be involved.
    Again, Amtrak spending $52 billion over 30 years won't 
increase capacity. And, in fact, they said 20, 40. If they 
spent $52 billion they would be maxed out on capacity. So we 
really have to look at this in a smarter way. We've got to make 
sure that the money being invested makes sense. We need all the 
stakeholders involved.
    Mr. Scardelletti, rail labor is extremely important to 
this. We've got to look beyond the way the country has done 
things in the past. I think your brothers and sisters in 
freight rail are doing very well for themselves. They're 
working for private companies.
    Again, the question that was put out there and I want to 
ask you: Does it really matter, if we get the guarantees for 
labor unions to be part of this system? Does it really matter 
if it's private sector or public sector or the company that you 
are working for?
    Mr. Scardelletti. Here's my experience. Amtrak started 40 
years ago. I know what we have. In my opinion, part of the 
objective in moving to the private sector is to reduce 
everything we have.
    Mr. Shuster. But in the freight system you are getting more 
dollars. When you work without a contract for several years the 
Federal Government won't negotiate with you. The private sector 
folks are doing quite well. And, I might add, are increasing 
job opportunities.
    Amtrak over the last ten years has lost 10,000 jobs; 
800,000 over the years. I think if we take a new model, a new 
approach to this, not only can we stabilize, I think we can 
increase the employment in the high speed passenger rail 
system.
    Mr. Scardelletti. You use that remark you made about the 
loss of jobs. We have lost the same amount of jobs in freight 
railroads, or more. The loss of jobs is a result of technology 
that we can't stop. For example, we had carbon paper, that's 
how you did everything. You made carbon copies and you had a 
copy machine and you had a lot of people and the equipment 
broke down a lot and you had to repair it a lot.
    Today's equipment is far more efficient. On the internet * 
* * There is no paper. This is where the jobs went, just like 
in any other corporation. Could Amtrak put more trains on the 
track? We have more riders than we ever had. So that's not why 
we lost the jobs.
    We lost the jobs because we're more productive as people, 
and all people are today in all industries. And technology has 
literally--if you had ten people, you might need one, or none, 
because the computer does it. That's where the jobs went. 
That's all I'm saying.
    Mr. Shuster. If you had high speed rail and it grew, these 
jobs would follow, whether on the train, whether they're 
producing new----
    Mr. Scardelletti. I don't disagree with you. If you gave a 
company established in 1970 the motivation and the money to do 
what you want, and they didn't do it, that would be a whole 
different hearing. I might agree with some of what you said. 
Instead, you beat them down at every turn of the corner. You 
beat them down, discouraged employees. How would you like to 
work for a company where you didn't get a raise for years?
    Mr. Shuster. I haven't got a raise in three years. I'm in 
Congress. Sometimes you have to deal with that.
    Mr. Mica. I thank the gentleman. His time has expired. I 
hope you guys can stay around for the discussion.
    I yield to our ranking member, the gentleman from West 
Virginia, Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. I appreciate the 
yield.
    You know, we had matters in this Committee on 
Transportation and Infrastructure in the past over worker 
protection. Bob, you recall them very well; 13C protection for 
transit workers. But I have a great deal of confidence that 
this year we'll be working together and there's not going to be 
these wholesale attacks on worker protection. Certainly not in 
the Northeast Corridor, where it's needed more than ever.
    I said that the other day in our Committee. I hope our 
politics ends at our committee's doors when we work on these 
issues of transportation.
    Mayor, I understand your criticism for the lack of any 
local match. You stated that was one of the problems with the 
stimulus program. Of course, the goal of the stimulus program 
is to get 100 percent of it out there as quickly as possible.
    But in the PRIIA act, we have established for the grant 
program where a 20 percent local match is required; and that 
just started in 2010. So I hope those issues, yours about local 
concern, which I share, will be resolved in the PRIIA act as it 
gets implemented.
    One of the criticisms that we heard on the PRIIA act--or 
rather, one of these processes set in place for the PRIIA act--
in 2008, for the DOT to request proposals from the private 
sector for financing high speed rail service grants in certain 
corridors, including the Northeast Corridor. Yet no one has 
submitted a proposal to DOT.
    So my question would be to you, or to other members of this 
panel: Why have there not been private proposals submitted to 
DOT?
    Mr. Bloomberg. I think the answer to that is that nobody 
thought the government would let the project satisfy the 
demands of the market. The government would constantly 
intervene and prevent the investor from charging what the 
market will bear; preventing the developer from adjusting the 
size of the work force based on the needs of the system.
    And if you stack the deck against them, all you're doing is 
transferring the problem from one to another. There's no reason 
why the other side would want to take that on.
    I was struck by Congressman Cravaack's comment on China. 
And one thing; when you think about China--nobody is more of a 
capitalist than I am. And I really don't think that capitalism 
is the only system, I don't think that we should privatize 
everything in government. There are certain things, at least in 
New York City--which I have a little bit of expertise in--that 
work quite well with government. I'm quite proud of what we 
have done here.
    But it is true that the Chinese must be doing something 
right, because they're the ones that are loaning us the money 
so we can subsidize things like Amtrak. Whereas, if you took 
the amount money that we spend on Amtrak and divide it by the 
number of riders and offer everybody that amount of money, 
they'd mostly walk.
    This is ridiculous. Nobody needs--I'm the biggest proponent 
of high speed rail service. But you have to get serious. Do you 
want to build out or do you want a jobs creation program?
    And one of the problems with the stimulus thing is, we 
talked about wanting to get people working quickly, and we also 
want to do infrastructure. Remember shovel ready and that sort 
of thing? Go back to the way we came out of the Depression. We 
built all of the major municipal buildings; we built the 
railroads; we built the bridges.
    That's what we did with that money, but it took a while to 
get going.
    We can't have it both ways. If you're going to create jobs 
right away, you're going to waste most of it. If you want to 
build for the future, you have to plan and you have to say, 
``OK, if the project doesn't justify the investment, we're not 
going to do it.''
    That politically today may just be so naive and so 
unrealistic that we can't do it. That's what you guys and women 
have to wrestle with. What are you trying to do? And you can't 
do everything.
    Thank you, Mr. Chairman. I have to go worry and make sure 
we clean the snow.
    Mr. Mica. Thank you, Mayor, for being with us. And I know 
Governor Rendell only has a couple of minutes. He changed his 
entire schedule.
    Mr. Bloomberg. Anything Ed says I'm in favor of.
    Mr. Mica. Thank you both for coming on a difficult day, for 
your leadership. You guys have been fantastic. The Committee 
owes you a debt of gratitude. We hope you continue to work with 
us. We're all headed in the right direction. We have a couple 
of bumps in the road before we get there.
    Voice. One question to the Mayor. Is that your snow shovel 
outfit?
    Mr. Bloomberg. I don't have a Class C license, so I 
couldn't drive a plow.
    Mr. Mica. Governor, I'll excuse you. You can go ahead and 
scoot if you have to leave.
    Mr. Rendell. Thanks very much for you all being here. It's 
impressive that so many came out, given the weather forecast 
and impediments. I also want to say to all of you, I know we've 
got proposals for spending the money.
    I think the President was right last night. We've got to 
cut the deficit, but we've also got to keep investing. There 
isn't a business out there that's successful that doesn't 
invest in itself. If you stop investing, you stop growing as a 
country. If you stop growing as a country, you'll be a second 
rate power relatively soon. You've got to find a way to do 
both. The only way to do both is to forget about the election, 
and spend this year trying to find real solutions to real 
problems.
    The fact you are here, the fact that the Chairman and * * * 
Really supply advice and leadership on this. We can do big 
things in America again. This is a big thing. You shouldn't shy 
away from this because it's difficult. You shouldn't shy away 
because of cost. It's a lot of money. We could put people to 
work. We can make this transportation system first class. We 
can lead the world again.
    Mr. Mica. What I'd like to do is, I know you're leaving, 
and thank you again, Governor, for being with us. We have the 
other three panelists. If you would please join us in our 
discussion, our open forum is open to the public. We'll try to 
start that a little early, maybe about 12:45. That will give 
members and other folks a few minutes to reconvene.
    If you have any closing comments, Mr. Scardelletti?
    Mr. Scardelletti. Mr. Chairman, I want to make one--I'm not 
trying to be obstructionist. The Mayor said about the subsidy 
to Amtrak, ``you could walk.'' That is really unfair. Who is 
going to walk? Where are you going to get these millions of 
people, how are you going to move them? You could say the same 
thing about bus, air and highways, how much money our 
government put it highways.
    How much money does our government put into highways? How 
much money does it put into airways? So that's not the right 
thing. That's not the kind of thing that is conducive to good 
debate, to say that kind of comment.
    Mr. Mica. Thank you.
    We have to give the opportunity to respond.
    Ms. Todorovich, any closing comments?
    Ms. Todorovich. Yes, thank you.
    Quickly, on the local match issue. No high speed rail 
system around the world has been built with significant local 
contributions. If we rely on 20 percent local match from each 
of the 12 states in the Northeast, it's never going to happen.
    I think the governor pointed out that there's a $47 billion 
combined deficit among these states. So there's a paradox, in 
that the Northeast mega-region is the place in the country most 
suited for high speed rail anyplace in the United States, with 
the density and the population.
    But it's also the most difficult place to build this system 
because we're crossing all these state boundaries.
    If this committee is serious about building two dedicated 
tracks for high speed rail, I think you have to develop a new 
public authority or a public benefit corporation, or some type 
of entity that has the ability to finance and raise revenue and 
hold firms accountable and get this project done.
    If we rely on an infrastructure advisory commission--
everything is advisory--it's never going to happen. That's 
something that I would look to all of your leadership for.
    Mr. Mica. Great comments.
    Mr. Hart.
    Mr. Hart. Chairman Mica, thank you and the members here 
today for giving me the opportunity to present a couple of 
thoughts.
    Congressman Rahall, your point about private sector 
investment. I've been involved in this for a while. I want to 
continue to advocate for private investment.
    The most important thing to public-private investment is 
consistency. They hate change, and they're not going to invest 
big money if one government supports high speed rail, and a new 
governor or new legislature comes in and cancels it.
    And that is why the Florida project is so important, and 
why Chairman Mica's leadership, along with Congresswoman Brown, 
in compelling a new model, where the shortfall in the match can 
be made up by private sector investment.
    And that is going to happen. It will be a $300 billion 
investment from some entity. And there are eight private 
companies that are competing in Florida. Let them compete and 
let them make the commitment to invest, take the risk in 
management and operations, maintenance and operations; they 
will do it, if the level of playing field is consistent and the 
commitment to high speed rail is consistent.
    The Tampa-Orlando route is not the worst route in the 
country. It's also not the best route, but it is a start. The 
route from Orlando to Miami is extremely opportunistic for 
investment. So continuing to motivate the private sector, give 
them the opportunity to put the money up, and they will do it.
    Thank you. That's my closing comment.
    Mr. Mica. Thank you, Mr. Hart.
    We are pleased, again, to be here in New York, and pleased 
to have Mr. Nadler who is a senior member of our T&I Committee. 
I'd like recognize him.
    Mr. Nadler. Thank you, Mr. Chairman.
    I wanted to start with Mr. Hart. Mr. Hart observed, I think 
correctly, that you are not going to get private sector 
investment on a long term project if you have very uneven 
public sector involvement.
    Things can change on a dime, because today you have an 
administration and a Congress willing to put money, and 
tomorrow you don't. Maybe next year you do again. You need 
certainty in planning.
    This leads me to the conclusion that, obviously, if you're 
going to have high speed rail--or for that matter bring up a 
rail up to a state of good repair--we have to have it in the 
public sector. However much the private sector wants to get 
involved, we must have some certainty in the public sector. We 
must have some guaranteed funding source.
    We must have assurance that, depending on the vicissitudes 
of this election, after this election, we don't double the 
financing, and after the next election zero it out, and after 
the next election after that, triple it.
    You have got to have some guaranteed funding source at some 
reasonable level, which may go up and down from time to time 
but returns to a reasonable level; so that, number one, the 
public sector can participate; and number two, so you can get 
the private sector to participate in either one of them.
    I would ask Mr. Hart or the Governor to comment.
    Mr. Hart. I agree with you, Congressman. That's very 
important and I consider it to be political sustainability; 
financial sustainability, environmental sustainability. 
Political sustainability is the objective here, and it will 
spark private sector investment. We do need a dedicated fund, 
revenue for high speed rail; and Amtrak needs additional 
funding, as well.
    So I agree with your observations.
    Mr. Rendell. Congressman, I would say that's another reason 
for an infrastructure bank. If we did it, Congress has control 
of the amount of its capacity. But that's going to be there 
administration after administration. It's going to make a 
binding commitment for the long term, whatever the public 
subsidy will be, obviously matched by the private sector. It's 
going to have the ability to make those long term commitments.
    Mr. Mica. I yield to Mr. Reed.
    Mr. Reed. Thank you, Mr. Chairman.
    I have a closing comment in response to my colleague, Ms. 
Brown from Florida, about the proposed cuts out there; 
specifically Amtrak.
    My philosophical point is: The freshman class gave up a 
tremendous amount to go to Washington, D.C. We were charged by 
the American people on November 2nd to get our deficit under 
control and make the hard decisions and cut spending down in 
Washington, D.C.
    I am committed and I am aware, Mr. Chairman, that we are 
having this discussion as to where we're going to spend our 
Federal dollars in a public session, with all these people 
here, so that this debate can be open, it can be vigorous.
    And I am so pleased that our leadership down in Washington 
has been engaged in the open rules, so that this discussion can 
continue on the floor of the House. Because the pros and cons 
of each dollar being spent has to be discussed in public. 
Through that public dialog and through that public scrutiny, 
we'll get certainty. Because there will be a commitment from 
the American people to know our dollars are being spent wisely.
    And I'm just honored to be part of this debate and I 
appreciate the Chairman, and we're going to have this debate 
publicly. And those final decisions will be made with that 
participation.
    And I yield the rest of my time.
    Mr. Mica. I thank the gentleman.
    Any other members that seek a last comment or recognition?
    Thank you so much for coming out today. Thank you, 
Governor. Thank you Ms. Todorovich. I want to thank labor, Mr. 
Scardelletti, Mr. Hart of the High Speed Rail Association.
    There being no further business before the Transportation 
Infrastructure Committee of the U.S. House of Representatives, 
this meeting is adjourned.
    And I invite you to participate in the open discussion that 
will follow.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
